APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Denial of Motion for Stay of Judgment
(December 10, 2020) . . . . . . . . . . . App. 1
Appendix B Denial of Motion for Rehearing in
Supreme Court of Louisiana
(December 9, 2020) . . . . . . . . . . . . App. 4
Appendix C Supreme Court of Louisiana Opinion
(October 20, 2020) . . . . . . . . . . . . . App. 6
Appendix D District Court Transcript from
Hearing on Motion to Quash
(October 30, 2019) . . . . . . . . . . . . App. 46
Appendix E Bill of Information
(April 10, 2017) . . . . . . . . . . . . . . App. 64

App. 1

APPENDIX A
Supreme Court
STATE OF LOUISIANA
New Orleans
[SEAL]
[Dated December 10, 2020]
CHIEF JUSTICE
BERNETTE J. JOHNSON
JUSTICES
WILLIAM J. CRAIN
SCOTT J. CRICHTON
JAMES T. GENOVESE
JAY B. MCCALLUM
JEFFERSON D. HUGHES III
JOHN L. WEIMER

Seventh District
First District
Second District
Third District
Fourth District
Fifth District
Sixth District

JOHN TARLTON OLIVIER
CLERK OF COURT
400 Royal St., Suite 4200
NEW ORLEANS, LA 70130-8102
TELEPHONE (504) 310-2300
HOME PAGE http://www.lasc.org
December 10, 2020
Jeffrey Martin Landry,
LOUISIANA DEPT OF JUSTICE
P O Box 94005
Baton Rouge, LA 70804-9005

App. 2
Shae Gary McPhee, Jr.,
1000 Delaronde St
New Orleans, LA 70114
Elizabeth Baker Murrill,
1885 N 3rd St
Baton Rouge, LA 70802
Re:

STATE OF LOUISIANA V. TAZIN
ARDELL HILL
2020-KA-00323

Dear Counsel:
This is to advise that the Court took the following
action on your Opposed Motion for Stay of Judgment
Pending Disposition in the United States Supreme
Court filed in the above-entitled matter.
Stay denied.
Johnson, C.J., not signing.
Crain, J., would grant.
With kindest regards, I remain,
Very truly yours,
Theresa McCarthy
Second Deputy Clerk
TM: TM
ccs: Michael J. Gregory
Keith A. Stutes
Roya Renee Sadreddini
Lafayette

App. 3
15th Judicial District Court: 160634 - Div:K
Patrick L. Michot, Sr.

App. 4

APPENDIX B
The Supreme Court of the State of Louisiana
No.2020-KA-00323
[Filed December 09, 2020]
______________________________
STATE OF LOUISIANA
)
)
VS.
)
)
TAZIN ARDELL HILL
)
______________________________)
-----IN RE: State of Louisiana - Appellant Plaintiff;
Applying for Rehearing, Parish of Lafayatte 15th
Judicial District Court Number(s) 160634;
-----December 09, 2020
Application for rehearing denied.
BJJ
JLW
JDH
SJC
JTG
Crain, J., would grant application for rehearing.
McCallum, J., would grant application for rehearing.

App. 5
Supreme Court of Louisiana
December 09, 2020
/s/

Clerk of Court
For the Court

App. 6

APPENDIX C
Supreme Court of Louisiana
[Filed: October 20, 2020]
FOR IMMEDIATE NEWS RELEASE
NEWS RELEASE #041
FROM:

CLERK OF
LOUISIANA

SUPREME

COURT OF

The Opinions handed down on the 20th day of
October, 2020 are as follows:
BY Genovese, J.:
2020-KA-00323 STATE OF LOUISIANA VS. TAZIN
ARDELL HILL (Parish of Lafayette)
The district court’s declaration that
the statutes are unconstitutional and
the district court’s ruling granting
defendant’s motion to quash are
affirmed. AFFIRMED.
Retired Judge James Boddie, Jr.,
appointed Justice pro tempore, sitting
for the vacancy in Louisiana Supreme
Court District 4.
Weimer, J., concurs and assigns
reasons.
Crain, J., dissents and assigns
reasons.

App. 7
10/20/20
SUPREME COURT OF LOUISIANA
No. 2020-KA-0323
STATE OF LOUISIANA
VERSUS
TAZIN ARDELL HILL
ON APPEAL FROM THE FIFTEENTH
JUDICIAL DISTRICT COURT, FOR THE
PARISH OF LAFAYETTE
GENOVESE, J.*
This case involves the constitutionality of a
statutory requirement that persons convicted of sex
offenses carry an identification card branded with the
words “SEX OFFENDER.” This obligation is included
as part of a comprehensive set of registration and
notification requirements imposed on sex offenders in
Louisiana. Other states (and the federal government)
have enacted similar collections of laws. However, the
specific requirement to carry a branded identification
card distinguishes Louisiana from the rest of the
country. Forty-one other states do not require any
designation on the identification cards of sex offenders.
For the reasons below, we find that this
requirement constitutes compelled speech and does not
survive a First Amendment strict scrutiny analysis.
*

Retired Judge James Boddie, Jr., appointed Justice pro tempore,
sitting for the vacancy in Louisiana Supreme Court District 4.

App. 8
Thus, we uphold the trial court’s ruling striking this
specific requirement as unconstitutional and quashing
the prosecution of defendant for altering his
identification card to conceal the “SEX OFFENDER”
designation.
FACTS AND PROCEDURAL HISTORY
On April 10, 2017, the state filed a bill of
information charging defendant, Tazin Ardell Hill, with
altering an official identification card to conceal his
designation as a registered sex offender, in violation of
La. R.S. 15:542.1.4(C). Defendant pleaded not guilty
and filed a motion to quash, contending that La. R.S.
40:1321(J) and 15:542.1.4(C) are unconstitutional.
Defendant argued that La. R.S. 40:1321(J) and
15:542.1.4(C) violate the First Amendment1
prohibition against compelled speech. In response, the
state argued that defendant failed to meet his burden
of proof in challenging the constitutionality of the
statute. Additionally, the state alleged he lacked
standing to challenge the requirement that he carry his
branded identification card, as he was charged instead
with altering it—not failing to carry it. Furthermore,
the state asserted the alteration of his identification
card lacked First Amendment protection for three
reasons: (1) the statute regulates conduct, not speech;
(2) regardless of the classification of the statute,
defendant’s actions fell outside of First Amendment
1

Defendant averred that the branded identification card
requirements violated both the Louisiana and Federal
constitutions’ prohibitions against compelled speech; however, it
is the Federal jurisprudence that will be primarily cited herein.

App. 9
protection because they constituted speech integral to
criminal conduct; and, (3) defendant acted
fraudulently, and fraud is not protected speech.
Additionally, the state argued the First Amendment
did not permit him to engage in “self-help” by illegally
altering the card. Finally, the state averred that, even
if a strict scrutiny analysis was required, it was
satisfied.
On October 30, 2019, the district court provided a
short statement quashing the state’s bill of information
against defendant and holding that La. R.S. 40:1321(J)
and La. R.S. 15:542.1.4(C) are facially unconstitutional.
Specifically, the court stated:
I found the statute to be unconstitutional. [T]he
requirement that the offender have “sex
offender” written on his official state
identification is not the least restrictive way to
further the State’s legitimate interest of
notifying law enforcement. It could be
accomplished in the same way that some other
states utilize. Louisiana could use more discreet
labels in the form of codes that are known to law
enforcement.
The state appealed.
DISCUSSION
Before we reach the merits of this case, we must
address certain preliminary issues. Specifically, we
must determine that the case is properly before this

App. 10
court2 and that defendant properly raised the
constitutionality of the statute in the court below.
Defendant properly challenged the constitutionality of
the statutes in the court below.
This court has held “that a constitutional challenge
may not be considered by an appellate court unless it
was properly pleaded and raised in the trial court
below.” State v. Hatton, 07-2377, p. 13 (La. 7/1/08), 985
So.2d 709, 718. In Hatton, this court described the
challenger’s burden as a three-step analysis. “First, a
party must raise the unconstitutionality in the trial
court; second, the unconstitutionality of a statute must
be specially pleaded; and third, the grounds outlining
the basis of unconstitutionality must be
particularized.” Id., 07-2377, p. 14, 985 So.2d at 719.
Defendant has met this burden in this case.
The statute requiring defendant to obtain and carry a
branded identification card and the statute setting
forth the penalties for altering that card are so
interrelated as to be non-severable, thus allowing
defendant to challenge the constitutionality of the
obtain-and-carry provision of the statute although he
is charged with altering the identification.
Next, we must determine whether La. R.S.
15:542.1.4(C), which sets forth the penalties for
altering a branded identification card, is severable from

2

Pursuant to La. Const. art. V, § 5(D), this case is directly
appealable to this court. The facts of the offense are not before this
court, as the trial court’s declaration of the statutes’
unconstitutionality was made before trial.

App. 11
the obtain-and-carry provision found in La. R.S.
40:1321(J). The severability of La. R.S. 15:542.1.4(C) is
important because it determines whether defendant
has standing to challenge the underlying obtain-andcarry provision found in La. R.S. 40:1321(J).
The state argues that a ruling on the
constitutionality of the obtain-and-carry provision is
not essential, as the state did not charge defendant
with violating the provision requiring him to obtain
and carry a branded identification card. Instead, it
charged him with altering an official identification
document to conceal the designation that he is a
registered sex offender, in violation of La. R.S.
15:542.1.4(C). Defendant counters that the statutes are
so interrelated as to be non-severable, which affords
defendant the standing to challenge the underlying
requirement to carry a branded identification card.
As mentioned at the outset, defendant was charged
with altering an official identification card to conceal
the designation that he was a registered sex offender in
volition of La. R.S. 15:542.1.4(C), which provides as
follows:
(1) Any person who either fails to meet the
requirements of R.S. 32:412(I) or
R.S. 40:1321(J), who is in possession of any
document required by R.S. 32:412(I) or R.S.
40:1321(J) that has been altered with the intent
to defraud, or who is in possession of a
counterfeit of any document required by R.S.
32:412(I) or R.S. 40:1321(J), shall, on a first
conviction, be fined not more than one thousand
dollars and imprisoned at hard labor for not less

App. 12
than two years nor more than ten years without
benefit of parole, probation, or suspension of
sentence.
The obtain-and-carry provision, La. R.S. 40:1321(J),
states in its entirety:
(1) Any person required to register as a sex
offender with the Louisiana Bureau of Criminal
Identification and Information, as required by
R.S. 15:542 et seq., shall obtain a special
identification card issued by the Department of
Public Safety and Corrections which shall
contain a restriction code declaring that the
holder is a sex offender. This special
identification card shall include the words “sex
offender” in all capital letters which are orange
in color and shall be valid for a period of one
year from the date of issuance. This special
identification card shall be carried on the person
at all times by the individual required to register
as a sex offender.
(2) Each person required to carry a special
identification card pursuant to this Subsection
shall personally appear, annually, at a field
office of the office of motor vehicles to renew his
or her special identification card[,] but only after
he or she has registered as an offender pursuant
to R.S. 15:542 et seq. Reregistration shall include
the submission of current information to the
department and the verification of this
information, which shall include the street
address and telephone number of the registrant;
the name, street address and telephone number

App. 13
of the registrant’s employer[;], and, any
registration information that may need to be
verified by the bureau. No special identification
card shall be issued or renewed until the office of
motor vehicles receives confirmation from the
bureau, electronically or by other means, that
the reregistration of the sex offender has been
completed.
(3) The provisions of this Subsection shall apply
to all sex offenders required to register pursuant
to R.S. 15:542 et seq., regardless of the date of
conviction.
(4) Whoever violates this Subsection shall be
fined not less than one hundred dollars and not
more than five hundred dollars, or imprisoned
for not more than six months, or both.
“The test for severability is whether the
unconstitutional portions of the statute are so
interrelated and connected with the constitutional
parts that they cannot be separated without destroying
the intention manifested by the legislature in passing
the act.” State v. Baxley, 93-2159 (La. 2/28/94), 633
So.2d 142, 144–45 (quoting State v. Azar, 539 So.2d
1222, 1226 (La.), cert. denied, 493 U.S. 823, 110 S.Ct.
82, 107 L.Ed.2d 48 (1989)).
Here, La. R.S. 40:1321(J) is not so distinct from La.
R.S. 15:542.1.4(C) as to be severable. The state must
first prove as an element of the crime that defendant is
required by La. R.S. 40:1321(J) or La. R.S. 32:412(I) to
carry an identification card branded with the word “sex
offender.” Louisiana Revised Statutes 15:542.1.4(C)

App. 14
applies only to people who are required to obtain and
carry the branded identification card and criminalizes
a person’s failure to comply with this requirement.
Because La. R.S. 15:542.1.4(C) depends on the obtainand-carry requirement for an understanding of its
meaning, severing them would destroy the intention
manifested by the legislature.
Having found that defendant satisfied the initial
hurdles presented by his case, we now address the
merits.
The requirement to carry a branded identification
card constitutes compelled speech and does not
survive a strict scrutiny analysis.
A threshold question in assessing the
constitutionality3 of the branded-identification card
requirement is determining whether this obligation
amounts to government speech or compelled speech. If
compelled speech, the branded identification card faces
strict scrutiny. If government speech, the branded
identification card faces little to no scrutiny. This
analysis necessarily involves a review of First
Amendment jurisprudence as it relates to government
speech and compelled speech.

3

As a general matter, statutes are presumed constitutional, and
any doubt is to be resolved in the statute’s favor. State v. Fleury,
01-0871, p. 5 (La. 10/16/01), 799 So.2d 468, 472. “Constitutional
scrutiny favors the statute. Statutes are presumed to be valid, and
the constitutionality of a statute should be upheld whenever
possible. State v. Brenner, 486 So.2d 101 (La.1986); State v. Rones,
223 La. 839, 67 So.2d 99 (1953).” State v. Griffin, 495 So. 2d 1306,
1308 (La. 1986).

App. 15
The First Amendment provides that “Congress shall
make no law... abridging the freedom of speech.” U.S.
Const. Amend. I. The First Amendment protects
against prohibitions of speech, and also against laws or
regulations that compel speech. “[T]he right of freedom
of thought protected by the First Amendment against
state action includes both the right to speak freely and
the right to refrain from speaking at all. See Board of
Education v. Barnette, 319 U.S. 624, 633–634, 63 S.Ct.
1178, 1182–1183, 87 L.Ed. 1628 (1943)[.]” Wooley v.
Maynard, 430 U.S. 705, 714, 97 S.Ct. 1428, 1435, 51
L.Ed.2d 752 (1977).
In Walker v. Texas Div., Sons of Confederate
Veterans, Inc., infra, the United States Supreme Court
announced a three-factor analysis to identify
government speech. This framework considers (1) a
medium’s history of communicating governmental
messages, (2) the level of the public’s association
between that medium of speech and the government,
and (3) the extent of the government’s control over the
message conveyed. In terms of how the Free Speech
Clause affects government speech, the Walker court
found as follows:
When government speaks, it is not barred by the
Free Speech Clause from determining the
content of what it says. Pleasant Grove City v.
Summum, 555 U.S. 460, 467–468, 129 S.Ct.
1125, 172 L.Ed.2d 853 (2009). That freedom in
part reflects the fact that it is the democratic
electoral process that first and foremost provides
a check on government speech. See Board of
Regents of Univ. of Wis. System v. Southworth,

App. 16
529 U.S. 217, 235, 120 S.Ct. 1346, 146 L.Ed.2d
193 (2000). Thus, government statements (and
government actions and programs that take the
form of speech) do not normally trigger the First
Amendment rules designed to protect the
marketplace of ideas. See Johanns v. Livestock
Marketing Assn., 544 U.S. 550, 559, 125 S.Ct.
2055, 161 L.Ed.2d 896 (2005). Instead, the Free
Speech Clause helps produce informed opinions
among members of the public, who are then able
to influence the choices of a government that,
through words and deeds, will reflect its
electoral mandate. See Stromberg v. California,
283 U.S. 359, 369, 51 S.Ct. 532, 75 L.Ed. 1117
(1931) (observing that “our constitutional
system” seeks to maintain “the opportunity for
free political discussion to the end that
government may be responsive to the will of the
people”).
Walker, 576 U.S. 200, 207, 135 S.Ct. 2239, 2245–46,
192 L.Ed.2d 274 (2015). Nevertheless, the ability of the
government to express itself is not without restriction,
as other constitutional and statutory provisions may
limit government speech.
The Free Speech Clause itself may constrain
government speech—for instance, in seeking to compel
private persons to “convey the government’s speech.”
Id., 576 U.S. at 208, 135 S.Ct. at 2246. “But, as a
general matter, when the government speaks[,] it is
entitled to promote a program, to espouse a policy, or to
take a position. In doing so, it represents its citizens
and it carries out its duties on their behalf.” Id.

App. 17
The state asserts the obtain-and-carry provision
amounts to permissible government speech not
regulated by the First Amendment for three primary
reasons: (1) defendant is not required to publically
display his state identification card “like a billboard;”
(2) people viewing defendant’s state identification card
are unlikely to conclude that defendant endorses the
message “sex offender”; and, (3) requiring defendant to
report basic facts on his state identification (including
that he is a sex offender) is necessary to conduct
essential operations of government. The state also
argues that while people may be embarrassed about
some information on their license, like their age or
weight, this court has explained that “an imposition of
restrictive measures on sex offenders adjudged to be
dangerous is ‘a legitimate nonpunitive governmental
objective and has been historically so regarded.’” State
v. Trosclair, 11-2302, p. 13 (La. 5/8/12), 89 So.3d 340,
349 (citing Smith v. Doe, 538 U.S. 84, 93, 123 S.Ct.
1140, 1147, 155 L.Ed.2d 164 (2003)).
We do not find the state’s arguments persuasive. In
Barnette, supra, the United States Supreme Court
found that the children of Jehovah’s Witnesses could
not be compelled by the school board to salute the flag
and to pledge allegiance at school without violating the
First Amendment. About 30 years later, Barnette was
cited in the analysis in Wooley v. Maynard, supra,
wherein the United States Supreme Court found that
a Jehovah’s Witness driver in New Hampshire could
not be punished by the state for repeatedly obscuring
the state motto “Live Free or Die” on his license plate.
Maynard was found guilty in state court of violating a
misdemeanor statute on three separate charges. He

App. 18
refused to pay the mandated fines, which resulted in 15
days in jail. Maynard and his wife then brought an
action to enjoin the state from arresting and
prosecuting them in the future. Ultimately, the United
States Supreme Court held that the state could not
“constitutionally require an individual to participate in
the dissemination of an ideological message by
displaying it on his private property in a manner and
for the express purpose that it be observed and read by
the public.” Id., 430 U.S. at 713, 97 S.Ct. at 1434–35.
Furthermore “‘persons who observe’ designs on IDs
‘routinely—and reasonably—interpret them as
conveying some message on the [issuer’s] behalf.’”
Walker, 576 U.S. at 212, 135 S.Ct. at 2249 (quoting
Summum, 555 U.S. at 471, 129 S.Ct. at 1133). While
the Supreme Court did not identify its standard of
review, it clearly applied strict scrutiny to find that the
driver could not be compelled by the government to
display an ideological message with which he
disagreed.
However, compelled speech (or compelled silence)
does not turn simply on whether an ideological
message is at issue. In Riley v. National Federation of
the Blind of North Carolina, Inc., 487 U.S. 781, 108
S.Ct. 2667, 101 L.Ed.2d 669 (1988), the Supreme Court
left the realm of the political and the religious and
expanded its compelled speech doctrine to the realm of
facts. Specifically, the United States Supreme Court
noted that Wooley, amongst other cases, could not be
distinguished simply because they involved compelled
statements of opinion, while Riley dealt with compelled
statements of fact: “[E]ither form of compulsion
burdens protected speech.” Riley, 487 U.S. at 797–98,

App. 19
108 S.Ct. at 2678. While analyzing North Carolina’s
content-based regulation governing the solicitation of
charitable contributions by professional fundraisers,
the United States Supreme Court noted:
Thus, we would not immunize a law requiring a
speaker favoring a particular government
project to state at the outset of every address the
average cost overruns in similar projects, or a
law requiring a speaker favoring an incumbent
candidate to state during every solicitation that
candidate’s recent travel budget. Although the
foregoing factual information might be relevant
to the listener, and, in the latter case, could
encourage or discourage the listener from
making a political donation, a law compelling its
disclosure would clearly and substantially
burden the protected speech.
Id., 487 U.S. at 798, 108 S.Ct. at 2678. It further
observed, “[m]andating speech that a speaker would
not otherwise make necessarily alters the content of
the speech.” Id., 487 U.S. at 795, 108 S.Ct. at 2677.
Thus, the court found that the North Carolina contentbased regulation, wherein the state had adopted a
“prophylactic rule of compelled speech, applicable to all
professional solicitations[,]” was subject to exacting
First Amendment scrutiny. Id., 487 U.S. at 798, 108
S.Ct. at 2678. Ultimately, the court concluded the
state’s interest in the importance of “informing donors
how the money they contribute is spent to dispel the
alleged misperception that the money they give to
professional fundraisers goes in greater-than-actual
proportion to benefit charity” was not as weighty as the

App. 20
state asserted. Id. Additionally, the chosen means to
accomplish it was unduly burdensome and not
narrowly tailored, as the state’s interest was not
sufficiently related to a percentage-based test and not
sufficiently tailored to such interests. Id. Government
regulation of speech “must be measured in minimums,
not maximums.” Id., 487 U.S. at 790, 108 S.Ct. at 2674.
Therefore, the court found the regulation infringed
upon freedom of speech.
In Walker, supra, the United States Supreme Court
observed that “specialty license plates issued pursuant
to Texas’s statutory scheme conveyed government
speech.” Walker, 576 U.S. at 208, 135 S.Ct. at 2246.
Relying on its analysis from Summum, the court first
noted that, “the history of license plates shows that,
insofar as license plates have conveyed more than state
names and vehicle identification numbers, they long
have communicated messages from the States.” Walker,
576 U.S. at 210–11, 135 S.Ct. at 2248. Furthermore,
the “Texas license plates designs ‘are often closely
identified in the public mind with the [State].’” Id., 576
U.S. at 212, 135 S.Ct. at 2248 (quoting Summum, 555
U.S. at 472, 129 S.Ct. at 1133). The plates serve the
governmental purpose of vehicle registration and
identification, and the governmental nature is clear
from their faces. Id. Further, Texas requires all vehicle
owners to display license plates, Texas issues every
license plate, and Texas owns the designs (including
the patterns and designs proposed by organizations
and private individuals). Id. Texas even dictates the
procedure for disposing of them. Id. Thus, “Texas
license plates are, essentially, government IDs. And
issuers of ID ‘typically do not permit’ the placement on

App. 21
their IDs of ‘message[s] with which they do not wish to
be associated.’” Id., 576 U.S. at 212, 135 S.Ct. at 2249
(citing Summan, supra, at 471, 129 S.Ct. at 1133). The
court noted that Texas “maintains direct control over
the messages conveyed on its specialty plates[,]”
allowing Texas to choose how to present itself and its
constituency. Id., 576 U.S. at 213, 135 S.Ct. at 2249.
The court also noted that there are other features on
the Texas specialty license plates that also indicate
that the message conveyed by those designs is conveyed
on behalf of the government. Texas selects each design,
and presents these designs on “government-mandated,
government-controlled, and government-issued IDs
that have traditionally been used as a medium for
government speech.” Id., 576 U.S. at 214, 135 S.Ct. at
2250. Furthermore, it also places the designs directly
below the large letters identifying “Texas” as the issuer
of the IDs. “The [designs] that are accepted, therefore,
are meant to convey and have the effect of conveying a
government message, and they thus constitute
government speech.” Id., 576 U.S. at 214, 135 S.Ct.at
2250 (quoting Summum, 555 U.S. at 472, 129 S.Ct. at
1134).
However, the United States Supreme Court also
explicitly noted that its “determination that Texas’s
specialty license plate designs are government speech
does not mean that the designs do not also implicate
the free speech rights of private persons. We have
acknowledged that drivers who display a State’s
selected license plate designs convey the messages
communicated through those designs.” Id., 576 U.S. at
219, 135 S.Ct. at 2252 (citing Wooley, 430 U.S. at 717

App. 22
n.15, 97 S.Ct. at 1436). Furthermore, the court
recognized the following:
[W]e have recognized that the First Amendment
stringently limits a State’s authority to compel
a private party to express a view with which the
private party disagrees. But here, compelled
private speech is not at issue. And just as Texas
cannot require SCV to convey ‘the State’s
ideological message,’ SCV cannot force Texas to
include a Confederate battle flag on its specialty
license plates.
Id., 576 U.S. at 219, 135 S.Ct. at 2253 (citations
omitted).
Thus, while license plate designs are government
speech, it is possible that government speech can
implicate private speech interests. Returning to
Wooley, the issue was whether the government’s
message is “readily associated” with the private person
compelled to propound it. Wooley, 430 U.S. at 717 n.15,
97 S.Ct. at 1436. Even more so than a license plate on
a car, an identification card is personalized to such an
extent that it is readily associated with the bearer.4

4

Additionally, the Wooley court noted that currency differs in
significant respects from an automobile. Currency, while passed
from hand to hand, is not as readily associated with its operator,
like an automobile. Thus, while “[c]urrency is generally carried in
a purse or pocket and need not be displayed to the public[,]” [and]
“[t]he bearer of currency is thus not required to publicly advertise
the national motto,” it differs in significant respects from a
personal identification card as well. Id. Although not displayed as

App. 23
We find instructive a recent ruling by a federal
district court in Alabama, which determined that a
branded-identification requirement unconstitutionally
compels speech. The ruling in Doe 1 v. Marshall, 367
F.Supp.3d 1310 (M.D. Ala. Feb. 11, 2019), pertained to
the Alabama Sex Offender Registration and
Community Notification Act (“ASORCNA” or “the Act”),
which applied to adult offenders convicted of any of 33
infractions designated as sex offenses under Alabama
law. There, a sex offender must abide by certain
registration and notification requirements and must
carry a branded identification card. Those registrantspecific identifications must bear the inscription
“criminal sex offender” in bold, red letters, which
enable law enforcement to identify the licensee as a sex
offender.
In February 2019, the Alabama court granted
summary judgment for the plaintiffs on the as-applied
compelled speech challenge, declaring that the branded
identification requirement under Alabama law was
unconstitutional under the First Amendment. It
specifically found that the branded identification
requirement unnecessarily compels speech, and it was
not the least restrictive means of advancing a
compelling state interest. Id. at 1324. The court, citing
to Cressman v. Thompson, 798 F.3d 938, 949–51 (10th
Cir. 2015), observed there was a four-part test to
determine whether the state has compelled speech.
“There must be (1) speech; (2) to which the plaintiff
prominently as a billboard or a license plate, an identification card
is not as pervasive yet unnoticed as currency either, and often
must be displayed to handle every day, mundane duties.

App. 24
objects; (3) that is compelled; and[,] (4) that is readily
associated with the plaintiff.” Id. The court found all
four elements were satisfied. Id.
First, comparing the words “criminal sex offender”
to the “Live Free or Die” license plate in Wooley, supra,
the court found there was speech. Id. The court further
observed that while the branded identification cards
involved government speech, that designation did not
immunize it from a compelled speech analysis. While
no one can force the state to print a specific design on
a license plate, like in Walker, supra, neither can the
state force someone to display a certain message on
their license plate, like in Wooley. Id. at 1325.
Next, the Doe I court recognized that the plaintiffs
strongly objected to the message on their identification
card, but they were compelled to display the message.
Carrying and displaying identification is a virtual
necessity in contemporary society; and, thus, the court
found the branded identification comparable to Wooley,
where a license plate is both required by the state and
required to be displayed to others. Id. Furthermore, the
message on the branded identification card is
associated with the plaintiffs, as the cards are “chockfull of Plaintiffs’ personal information[.]” Id. at 1326.
Additionally, much like how Maynard in Wooley was
associated with his vehicle, the plaintiffs here were
associated with their drivers licenses. The court noted,
“[t]he dirty looks that Plaintiffs get are not directed at
the State.” Id. The court also differentiated between
identification cards and currency, as a person is not
identified with their currency, which is not displayed,
but rather exchanged. Identification cards are

App. 25
personalized and never meant to be given away, unlike
currency. Id.
The Doe I court determined that the branded
identification requirement compelled speech and
imposed a content-based regulation on speech;
therefore, the requirement must pass strict scrutiny.
Id. While noting that the state has a compelling
interest in identifying a person as a sex offender, it
found that Alabama had not adopted the least
restrictive means of doing so, such as using a single
letter that law enforcement would know but the
general public would not, and therefore it went beyond
what was necessary to achieve that interest. Id. at
1326–27. Thus, the court found the statute, as applied
by the state, unconstitutional. Id.
Also noteworthy is the case from the northern
district of California, which is helpful in our analysis.
That case pertained to the International Megan’s Law
(“IML”) codified in 34 U.S.C. § 21501 et seq., requiring
that passports issued to sex offenders convicted of a sex
offense against a minor display a unique identifier
indicating the bearer’s conviction. Doe v. Kerry, No. 16cv-0654-PJH, 2016 WL 5339804 (N.D. Cal. Sept. 23,
2016). The plaintiffs in that case challenged both the
“passport identifier” and “notification” provisions, the
latter pertaining to international travel plans that
required individuals to report their future travel plans
21 days in advance of international travel. Under the
procedures that existed at the time, a sex offender
could travel to one country, but then travel from that
destination to another country without detection by
U.S. authorities, and the “IML prevents such offenders

App. 26
‘from thwarting I[ML] notification procedures by
country hopping to an alternative destination not
previously disclosed,’ by directing the State
Department to ‘develop a passport identifier’ that
would allow such individuals to be identified once they
arrive at their true destination.” See id. at 5 (citing 162
Cong. Rec. H390 (daily ed. Feb. 1, 2016) (statement of
Rep. Smith)).
Once an individual was determined to be a
convicted sex offender, the Secretary of State would not
issue a passport to them unless it included a “unique
identifier” and could revoke passports issued without
such an identifier. In this case, however, the unique
identifier to be used had not been determined at the
time of the suit, and therefore the court found that the
plaintiffs had failed to establish standing, as the case
was not ripe for consideration.
Nonetheless, the Kerry court did briefly address the
compelled speech claims and noted that a Federal Rule
of Civil Procedure 12(b)(6) dismissal would be
appropriate, as the passport identifier would constitute
government speech, and not speech by the individual
passport holder. The court noted the government
controls every aspect of its issuance and appearance,
and that a passport is a government-issued document.
The court even specifically noted that, “[t]he function of
a passport is to serve as a ‘letter of introduction in
which the issuing sovereign vouches for the bearer and
requests other sovereigns to aid the bearer’ and as a
‘travel control document’ representing ‘proof of identity
and proof of allegiance to the U.S.’” Id. at 16 (quoting
Haig v. Agee, 453 U.S. 280, 292–93 (1981)). Even while

App. 27
in the passport holder’s hands, a passport remains
government property and must be surrendered upon
demand. Furthermore, individuals have no editorial
control over the information in the passport, and only
the U.S. government may amend passports. Criminal
penalties are imposed upon those who mutilate or alter
them. Id. at 17. Ultimately, the court found that the
passport identifier constituted government speech, and
therefore, the “unique identifier” requirement did not
implicate First Amendment interests, as the Free
Speech Clause limits government regulation of speech
that is considered private, but does not regulate
government speech. Id. at 18. Further, a passport
communicates information on behalf of the issuing
government, not the passport holder. The court stated
that “[i]f federal law permitted individuals to
communicate their own messages in their passports, or
control the information that passports contain, those
documents would cease to function as reliable
government-issued identification.” Id.
The Kerry court differentiated the Kerry case from
the Wooley jurisprudence by stating that those
“involved government speech containing an ‘ideological
message’ or a political position which implicated the
First Amendment because the government’s point of
view would be attributed to—or deemed to be endorsed
by—the private party.” Id. The court found the yet-tobe-determined mark on the passport was a statement
of fact to be placed by the government—who can speak
for itself—on the passport and did not communicate
any ideological or political message. Id. The court
further noted that registered sex offenders had had the
opportunity to challenge criminal charges, and that a

App. 28
person would not reasonably interpret the identifier to
convey agreement with the government’s opinion of sex
trafficking. Id. Additionally, while the court noted that
in some cases, the compulsion of “factual” speech may
be unconstitutional, citing to Riley, supra, it
determined that “those cases are distinguishable
because the laws or regulations at issue required the
speaker to communicate the government’s message
relating to controversial social or political issues, not
mere facts relating to criminal convictions.” Id.
Ultimately the court found that, “contrary to plaintiffs’
arguments, the identifier is not a public communication
and will not even be displayed to the public. The U.S.
passport itself is not speech, and the passport identifier
does not suggest or imply that the passport holder has
adopted or is sponsoring an ideological or political point
of view.” Id.
Bringing the analysis back to the facts of this case,
we are faced with the question of whether Louisiana’s
identification more like a license plate, which can be a
hybrid of compelled and government speech, or more
like a passport, which at least one federal district court
ruled is government speech that is immune to the
reach of the First Amendment. Defendant clearly
objects to showing others an identification that reads
“SEX OFFENDER” in big orange letters because of the
social consequences of that message rather than for
religious or political reasons. The federal district
court’s opinion in California with regard to passports
notwithstanding, Walker, supra, suggests that if the
government compels private persons to regularly
convey its chosen speech, the government forfeits the

App. 29
deference it is normally afforded under the government
speech doctrine.
Thus, we find the attempt by the Kerry court to
distinguish the facts of that case from the Riley
jurisprudence unpersuasive, as Riley did not
differentiate between statements of facts that relate to
controversial or political facts, as opposed to simply
facts. Like in Wooley where the government-issued
license plate read “Live Free or Die,” the identification
card branded with “sex offender” is speech. The fact
that a license plate was found to be government speech
did not immunize it from a compelled speech analysis.
Thus, even though an identification card is government
speech, a compelled speech analysis may still be
required. While Wooley involved an ideological
statement, Riley observed that cases cannot be
differentiated on whether they turn on compelled
statements of opinion or on compelled statements of
fact. Further, the First Amendment does not turn on
whether a person is speaking or being forced to speak,
rather than remaining silent. While no one can force
the state to print a certain design on its license plate,
like in Walker, neither can the state force someone to
display a particular message on his or her license plate
either, like in Wooley.
Notably, the state also argues that requiring
defendant to report basic facts on his state
identification card is necessary to conduct essential
operations of government. In other cases, the courts
have more explicitly addressed compelled speech when
it pertains to essential government operations. In
United States v. Sindel, 53 F.3d 874 (8th Cir. 1995), the

App. 30
federal Eighth Circuit rejected a claim that compelled
disclosure of information on an IRS form was unlawful
compelled speech: “There is no right to refrain from
speaking when ‘essential operations of government
require it for the preservation of an orderly society—as
in the case of compulsion to give evidence in court.’” Id.
at 878 (quoting West Virginia State Bd. of Educ. v.
Barnette, 319 U.S. 624, 645, 63 S.Ct. 1178, 1189, 87
L.Ed. 1628 (1943)).
In addition, in United States v. Arnold, 740 F.3d
1032 (5th Cir. 2014), the federal Fifth Circuit found the
registration requirements of the Sex Offender
Registration and Notification Act (“SORNA”) did not
compel speech in violation of the First Amendment.
There, the court noted that in 2011, Arnold moved from
Marshall County, Mississippi, to Tennessee, but did not
notify Marshall County of his move, update his
registration with Mississippi, or register as a sex
offender in Tennessee. While observing that Arnold had
not urged that SORNA either requires him (a) to affirm
a religious, political, or ideological belief he disagrees
with, or (b) to be a moving billboard for a governmental
ideological message, the court noted that it appeared
Congress enacted SORNA as a means to protect the
public from sex offenders by providing a uniform
mechanism to identify those convicted of certain
crimes.
However, Sindel pertains to information provided
solely to the government, and Arnold concerned
SORNA’s requirement that sex offenders register their
residence. In Riley, the Supreme Court noted that the
state may itself publish the detailed financial

App. 31
disclosure forms it requires professional fundraisers to
file. This specific procedure “would communicate the
desired information to the public without burdening a
speaker with unwanted speech [.]” Riley, 487 U.S. at
800, 108 S.Ct. at 2679. The court suggested the state
could “vigorously enforce” its antifraud laws, and these
more narrowly tailored rules were “[i]n keeping with
the First Amendment directive that government not
dictate the content of speech absent compelling
necessity, and then, only by means precisely tailored.”
Id. 487 U.S. at 800, 108 S.Ct. at 2679–80.
Returning to Wooley, the Supreme Court analyzed
whether the state’s countervailing interest was
sufficiently compelling to justify requiring appellees to
display the state motto on their license plates. There,
the state argued that the display of the motto
(1) facilitated the identification of passenger vehicles;
and (2) promoted appreciation of history,
individualism, and state pride. Wooley, 430 U.S. at 716,
97 S.Ct. at 1436. The court found that even if the
government’s purpose in requiring them to display the
plate was “legitimate and substantial, that purpose
cannot be pursued by means that broadly stifle
fundamental personal liberties when the end can be
more narrowly achieved. The breadth of legislative
abridgment must be viewed in the light of less drastic
means for achieving the same basic purpose.” Id., 430
U.S.at 716–17, 97 S.Ct. at 1436 (quoting Shelton v.
Tucker, 364 U.S. 479, 488, 81 S.Ct. 247, 252, 5 L.Ed.2d
231 (1960).
Here, defendant is not just required to register his
residence, nor solely to provide information to the

App. 32
government. Defendant is instead also required to
display the words “sex offender” on his identification
card. In performing everyday tasks, he will have to
show that identification card to the public. That
identification card is branded with the words “sex
offender,” and, along with his name, picture, address,
and other identifying characteristics, that branded
identification card is “readily associated” with him.
Wooley, supra. Further, a state identification card is
not like a passport or currency. Passports are not
routinely viewed by the public, and they serve as a
“letter of introduction in which the issuing sovereign
vouches for the bearer and requests other sovereigns to
aid the bearer” and as a “travel control document.”
Haig v. Agee, 453 U.S. 280, 292–93 (1981). While
currency may have the words “In God We Trust”
printed on it, that message is not personalized, as is
the case with an identification card. Furthermore,
currency is simply exchanged, as the currency passes
through many hands. Identification cards, on the other
hand, are proof of identity and are frequently displayed
for examination by a cashier, bank teller, grocery store
clerk, new employer, or for air travel, hotel
registration, and so forth.
The branded identification card is compelled speech,
and it is a content-based regulation of speech that
consequently must pass strict scrutiny. While the state
certainly has a compelling interest in protecting the
public and enabling law enforcement to identify a
person as a sex offender, Louisiana has not adopted the
least restrictive means of doing so. A symbol, code, or
a letter designation would inform law enforcement that
they are dealing with a sex offender and thereby reduce

App. 33
the unnecessary disclosure to others during everyday
tasks. The sex offender registry and notification is
available to those who have a need to seek out that
information, while also not unnecessarily requiring
disclosing that information to others via a branded
identification. As Louisiana has not used the least
restrictive means of advancing its otherwise compelling
interest, the branded identification requirement is
unconstitutional.
The state’s final argument is that defendant’s
alteration of his identification card is fraudulent
conduct, which is not protected by the First
Amendment. The state cites United States v. O’Brien,
391 U.S. 367, 88 S.Ct. 1673, 20 L.Ed.672 (1968), in
support of this assertion; however, we do not find the
state’s argument persuasive.
In O’Brien, the Supreme Court addressed a 1965
Amendment concerning Selective Service registration
certificates, which “subject[ed] to criminal liability not
only one who ‘forges, alters, or in any manner
changes[,]’ but also one who ‘knowingly destroys (or)
knowingly mutilates’ a certificate.” Id., 391 U.S. at 375,
88 S.Ct. at 1678. The Supreme Court stated the
government had a substantial interest in assuring the
continuing availability of issued Selective Service
certificates, the 1965 Amendment specifically protected
that interest, and the court “perceive[d] no alternative
means that would more precisely and narrowly assure
the continuing availability of issued Selective Service
certificates than a law which prohibits their willful
mutilation or destruction.” Id., 391 U.S. at 381, 88
S.Ct. at 1681. Specifically, the Supreme Court noted:

App. 34
The governmental interest and the scope of the
1965 Amendment are limited to preventing
harm to the smooth and efficient functioning of
the Selective Service System. When O’Brien
deliberately rendered unavailable his
registration certificate, he willfully frustrated
this governmental interest. For this
noncommunicative impact of his conduct, and for
nothing else, he was convicted.
Id., 391 U.S. at 382, 88 S.Ct. at 1681–82. However, the
court differentiated this case from ones “where the
alleged governmental interest in regulating conduct
arises in some measure because the communication
allegedly integral to the conduct is itself thought to be
harmful.” Id. As an example, the court cited to
Stromberg, supra, noting, “this Court struck down a
statutory phrase which punished people who expressed
their ‘opposition to organized government’ by
displaying ‘any flag, badge, banner, or device.’ Since
the statute there was aimed at suppressing
communication[,] it could not be sustained as a
regulation of noncommunicative conduct.” O’Brien, 391
U.S. at 382, 88 S.Ct. at 1682.
We find Wooley, supra, to be more applicable than
O’Brien, supra. In Wooley, Maynard repeatedly covered
the motto “Live Free or Die” on his license plate, and,
in response, was repeatedly charged with and convicted
of a misdemeanor offense that prohibited obscuring the
letters on a license plate. The court declared the
statute unconstitutional and enjoined New Hampshire
from enforcing it on the grounds that forcing their
residents to display the state motto violated their First

App. 35
Amendment rights. Similarly, we find that the
designation on the identification card is compelled
speech, and a similar result must follow. This outcome
is in contrast with the O’Brien ruling, wherein the
Supreme Court found the governmental interest and
the scope of the 1965 Amendment were limited to
preventing harm to the Selective Service System. When
O’Brien deliberately rendered his registration
certificate unavailable, he willfully frustrated this
governmental interest. Additionally, “[f]or this
noncommunicative impact of his conduct, and for
nothing else, he was convicted.” O’Brien, 391 U.S. at
382, 88 S.Ct. at 1682. However, in the instant case,
because it compels speech, the identification
requirement is a content-based regulation of speech,
which targets speech based on its communicative
content.
Furthermore, this requirement cannot be severed
from the rest of the statute. As discussed above, La.
R.S. 40:1321(J) is not distinct from La. R.S.
15:542.1.4(C). The statute which defendant was
charged under, La. R.S. 15:542.1.4(C), specifically
states “[a]ny person who either fails to meet the
requirements of La. R.S. 32:412(I) or La. R.S.
40:1321(J), who is in possession of any document
required by La. R.S. 32:412(I) or La. R.S. 40:1321(J)
that has been altered . . . .” Thus, in order to convict
defendant of violating La. R.S. 15:542.1.4(C), the state
must first prove as an element of the crime that he is
required by La. R.S. 40:1321(J) or La. R.S. 32:412(I) to
carry an identification card branded with the words,
“sex offender.” Therefore, the statute still requires
unconstitutional compelled speech, and this

App. 36
requirement cannot be severed from the rest of the
statute. The statutes are intertwined so that we cannot
simply strike the provision requiring sex offenders to
have “sex offender” written on their identification card.
Otherwise, the meaning of that statute is lost.
However, the state has an alternative method
discussed herein for preventing fraud, through other
provisions in the Louisiana Revised Statutes that
prohibit altering a government identification generally.
See La. R.S. 14:70.7; 40:1131. Thus, the state still has
a content-neutral way to prevent fraudulently altering
identification cards.
CONCLUSION
In conclusion, the district court did not err when it
declared La. R.S. 40:1321(J) and La. R.S. 15:542.1.4(C)
unconstitutional. The statute that defendant was
charged under, La. R.S. 15:542.1.4(C), cannot be
severed from La. R.S. 40:1321(J), because in order to
prosecute defendant under La. R.S. 15:542.1.4(C), the
state must first prove as an element of the crime that
he is required by La. R.S. 40:1321(J) or La. R.S.
32:412(I) to carry an identification card branded with
the word, “sex offender.” Furthermore, the branded
identification card is compelled speech. As a contentbased regulation of speech, it must pass strict scrutiny.
While the state certainly has a compelling interest in
protecting the public and enabling law enforcement to
identify a person as a sex offender, Louisiana has not
adopted the least restrictive means of doing so. As
Louisiana has not used the least restrictive means of
advancing its otherwise compelling interest, the
branded identification card requirement is

App. 37
unconstitutional. Nor does the inclusion of fraud as an
element of La. R.S. 15:542.1.4(C) salvage the statute,
as the statute’s requirement that defendant carry the
branded identification card cannot be severed from the
remainder of the statute. However, the state has a
content-neutral way to prevent fraudulently altering
identification cards, through other provisions in the
Louisiana Revised Statutes which prohibit altering a
government identification generally. See La. R.S.
14:70.7; 40:1131.
DECREE
The district court’s declaration that the statutes are
unconstitutional and the district court’s ruling granting
defendant’s motion to quash are affirmed.
AFFIRMED.

App. 38
10/20/20
SUPREME COURT OF LOUISIANA
No. 2020-KA-0323
STATE OF LOUISIANA
VERSUS
TAZIN ARDELL HILL
On Appeal from the Fifteenth Judicial District Court,
Parish of Lafayette
WEIMER, J., concurring.
I agree with the majority’s determination that the
branded identification card required by La. R.S.
40:1321(J) and La. R.S. 15:542.1.4(C) is compelled
speech and, as content-based regulation of speech, will
survive constitutional analysis only if it passes the
strict scrutiny test. I write separately to emphasize the
failure of the state, on the present record, to meet its
evidentiary burden under a strict scrutiny analysis.
As set forth in detail in In re Warner, 05-1303 (La.
4/17/09), 21 So.3d 218, which is another decision of this
court addressing the constitutionality of a rule effecting
a content-based regulation of speech, the strict scrutiny
analysis involves a two-part inquiry. “Under strict
scrutiny the government bears the burden of proving
the constitutionality of the regulation by showing
(1) that the regulation serves a compelling
governmental interest, and (2) that the regulation is
narrowly tailored to serve that compelling interest.”
Warner, 05-1303 at 37, 21 So.3d at 246. As we

App. 39
cautioned in Warner, “[a] law subject to strict scrutiny
because it regulates speech based on its content is
presumptively invalid, ‘and the Government bears the
burden to rebut that presumption.’” Id., 15-1303 at 43,
21 So.3d at 250 (quoting United States v. Playboy
Entertainment Group. Inc., 529 U.S. 803, 817
(2000)).
As Warner explains, in connection with the first
prong of a strict scrutiny analysis–the statement of a
compelling governmental interest which is served by
the regulation in question–“[t]he state’s role is to assert
an interest served by the regulation at issue and to
submit evidence to establish the compelling nature of
that interest.” Warner, 15-1303 at 44, 21 So.3d at 250.
In this endeavor, mere speculation of harm will not
suffice; rather, the state must effectively demonstrate
“that the harms it recites are real and that its
restriction [of speech] will in fact alleviate them to a
material degree.” Id. (quoting Playboy
Entertainment Group, 529 U.S. at 817).
If the state meets this burden and succeeds in
setting forth an interest which qualifies as
“compelling,” then we must analyze “whether the law
in question is precisely drawn or narrowly tailored to
serve that compelling interest.” Warner, 15-1303 at 47,
21 So.3d at 253. “The purpose of this analysis ‘is to
ensure that speech is restricted no further than
necessary to achieve the [state’s] goal ....’” Id., 15-1303
at 48, 21 So.3d at 253 (quoting Ashcroft v. American
Civil Liberties Union, 542 U.S. 656, 666 (2004). To
this end, the court must consider: (1) whether the rule
actually advances the interest asserted; (2) whether it

App. 40
is reasonably necessary to serve the state interest;
(3) whether the rule is underinclusive; i.e., whether it
leaves appreciable damage to the supposedly vital state
interest unprohibited; (4) whether the rule is
overinclusive; i.e., whether it suppresses more speech
than is necessary to accomplish the compelling goal;
and (5) whether there are less speech restrictive
alternatives available that would serve the compelling
state interest as well. Warner, 15-1303 at 48-49, 21
So.3d at 253-54.
As the foregoing discussion illustrates, the burden
that falls on the state in a case such as this one,
requiring a strict scrutiny analysis, is a substantial
one, which will not be satisfied simply by argument
and speculation. However, that is essentially all that
the record below offers.
Before this court, the state asserts that the
Louisiana Legislature’s findings and purpose with
regard to the state’s sex offender registration
requirements, codified in La. R.S. 15:540(A), are
sufficient to prove a “compelling governmental
interest.” Pretermitting the question of whether broad
statements of legislative purpose involving the sex
offender registration requirements as a whole (and in
absence of empirical evidence of the type outlined in
Warner) are sufficient to establish a compelling
governmental interest, what is at issue in this case is
not the entire registration scheme, but a specific
provision thereof, and the state has offered no evidence
proving that the branded identification card effectively
alleviates any harm that might be inflicted on the

App. 41
public, or that it is the least restrictive means of
furthering its stated interest.
On the present record, the state has clearly failed to
meet its evidentiary burden under the strict scrutiny
test. Therefore, I respectfully concur.

App. 42
10/20/20
SUPREME COURT OF LOUISIANA
No. 2020-KA-0323
STATE OF LOUISIANA
VERSUS
TAZIN ARDELL HILL
ON APPEAL FROM THE FIFTHEENTH
JUDICAL DISTRICT COURT,
PARISH OF LAFAYETTE
CRAIN, J., dissenting.
The majority finds it unconstitutional to require a
convicted sex offender to be identified as such on a
government-issued identification card. Louisiana
Revised Statutes 40:1321J requires a registered sex
offender to procure a special identification card that
includes the words “sex offender” in all capital, orange
letters. That phrase is the speech at issue. It is not
First Amendment protected speech. The speaker is the
government: the words are stamped by a governmental
agency on a government-issued identification card in
accordance with a government-enacted statute. This is
the embodiment of government speech.
The only issue is whether this government speech is
presented so as to lead an observer to incorrectly
conclude the speaker is the cardholder. If so, the
government speech crosses the line into “compelled
speech,” which is subject to strict constitutional

App. 43
scrutiny. The First Amendment stringently limits a
state’s authority to compel a private party to express a
view with which the private party disagrees. Walker v.
Texas Div., Sons of Confederate Veterans, Inc., 576 U.S.
200, 219; 135 S.Ct. 2239, 2253; 192 L.Ed.2d 274 (2015).
However, “the Government is not uniformly barred
from passing laws that might call on private parties to
literally carry an item containing Government speech.”
New Doe Child #1 v. Cong. of United States, 891 F.3d
578, 593 (6th Cir. 2018) (emphasis in original). As
explained by the Supreme Court, the test is whether
the private parties “are closely linked with the
expression in a way that makes them appear to endorse
the government message.” Johanns v. Livestock Mktg.
Association, 544 U.S. 550, 565 n.8, 125 S.Ct. 2055, n.8,
161 L.Ed.2d 896 (2005) (internal quotation marks
omitted); New Doe Child, 891 F. 3d at 593. Under this
“attribution analysis,” the question is whether
observers would attribute, or actually have attributed,
the speech to the individual rather than to the
government. See New Doe Child, 891 F.3d at 593-94.
Here, nothing about the placement or content of the
subject speech remotely suggests it is made or endorsed
by the defendant. It declares the defendant is a sex
offender. It appears on a state-issued identification
card. “[P]ersons who observe designs on IDs
routinely—and reasonably—interpret them as
conveying some message on the issuer’s behalf.”
Walker, 576 U.S. at 212; 135 S.Ct. at 2249 (internal
punctuation omitted; emphasis added). That is
particularly true in this case given the pejorative
nature of the speech. No reasonable observer, when
looking at the identification card, will conclude the

App. 44
defendant chose to promote his status as a convicted
sex offender by voluntarily procuring and personalizing
a state-issued identification card to declare that
information for the world. “In this context, there is
little chance that observers will fail to appreciate the
identity of the speaker.” Pleasant Grove City, Utah v.
Summum, 555 U.S. 460, 471; 129 S.Ct. 1125, 1133; 172
L.Ed.2d 853 (2009).
The majority uses a truncated standard that asks
only if the speech is “associated with,” rather than
“endorsed [by],” the defendant.1 The majority
determines the defendant’s identification card is
“associated with” the defendant, an unavoidable
conclusion given the whole purpose of an identification
card is to identify the defendant. It is certainly his ID;
however, that fact alone does not attribute the speech
on the ID to the defendant instead of the government.

1

The “associated with” phrase appears in Wooley where the
Supreme Court was “faced with the question of whether the State
may constitutionally require an individual to participate in the
dissemination of an ideological message by displaying it on his
private property.” Wooley v. Maynard, 430 U.S. 705, 713; 97 S.Ct.
1428, 1434; 51 L.Ed.2d 752 (1977) (emphasis added). The Court
distinguished such messages on currency, which is “passed from
hand to hand,” from a message appearing on the license plate of an
automobile “which is readily associated with its operator.” Wooley,
430 U.S. at 717 n.15; 97 S.Ct. at 1436 n.15. We are not confronted
with speech conveying an ideological message, nor are we
addressing compelled verbal communication, which is inherently
identified with the speaker, as in Riley v. Nat’l Fed’n of the Blind
of N. Carolina, Inc., 487 U.S. 781; 108 S.Ct. 2667; 101 L.Ed.2d 669
(1988). The Supreme Court’s more recent and refined approach to
identifying permissible government speech appears in Walker,
Pleasant Grove City, and Johanns, as set forth herein.

App. 45
Absent attribution to the defendant, the speaker
remains the government. Under the majority’s
approach, any and all information appearing in
government-issued documents that are “associated
with” a person--a driver’s license, passport, social
security card, birth certificate, etc.--is compelled speech
subject to strict constitutional scrutiny. A driver’s
weight, age, height, and address are all compelled
speech that, if challenged on constitutional Free Speech
grounds, requires the state to prove the inclusion of the
information is the least restrictive means of achieving
a compelling state interest.
This case turns on a single determinative question:
who is the speaker? Any reasonable observer of the
defendant’s state-issued identification card would
readily ascertain the speaker is the government, not
the defendant. I respectfully dissent from the majority’s
holding declaring Louisiana Revised Statutes 40:1321J
and 15:542.1.4C unconstitutional.

App. 46

APPENDIX D
IN THE CRIMINAL DISTRICT COURT
OF THE FIFTEENTH JUDICIAL DISTRICT
IN AND FOR THE PARISH OF LAFAYETTE
STATE OF LOUISIANA
[Filed February 14, 2020]
*************************************************
STATE OF LOUISIANA
VERSUS

DOCKET NUMBER: 160634

TAZIN ARDELL HILL
**************************************************
The above-entitled case came before the Honorable
Patrick L. Michot, Judge of the above-styled court,
Lafayette Parish Courthouse, Lafayette, Louisiana, on
October 30, 2019, pursuant to notice.
APPEARANCES:
FOR THE STATE OF LOUISIANA:
MS. ROYA S. BOUSTANY
ASSISTANT DISTRICT ATTORNEY
LAFAYETTE PARISH COURTHOUSE
LAFAYETTE, LOUISIANA 70501
FOR THE DEPARTMENT OF JUSTICE:
MR. SHAE McPHEE
ATTORNEY GENERAL

App. 47
POST OFFICE BOX 94005
BATON ROUGE, LOUISIANA 70804-9095
APPEARANCES, CONTINUED
FOR THE DEFENDANT:
MR. MICHAEL GREGORY
INDIGENT DEFENDER BOARD
POST OFFICE BOX 3622
LAFAYETTE, LOUISIANA 70502

App. 48
OPEN COURT
HONORABLE
PRESIDING

PATRICK

L.

MICHOT,

JUDGE

OCTOBER 30, 2019
MOTION
*

*

*

MR . GREGORY: So, Your Honor, I filed a -MS. BOUSTANY: Can I make an appearance first,
Michael?
MR. GREGORY: Go ahead.
MS. BOUSTANY: Roya Boustany on behalf of the
State of Louisiana, Your Honor.
MR. McPHEE: And I’m Shae McPhee on behalf of
the Attorney General.
THE COURT: I’m sorry. Your name again, please?
MR. McPHEE: Mr. McPhee, Shae McPhee.
MR. GREGORY: And then Michael Gregory on
behalf of Tazin Hill.
THE COURT: Are you ready to proceed?
MR. GREGORY: Yes. So, Your Honor, I filed a
motion to quash on this case. Mr. Hill is charged with
failure to register under 15:542.1.4 (C) and, specifically,
he’s charged with altering his identification document.
So the law requires Mr. Hill to carry an identification
that has the word “sex offender” written on it. He is

App. 49
charged with scratching off the word “sex offender.”
And I want to specifically state the -- or read the actual
part of the statute that he’s charged with. It says that,
“Any person who either fails to meet the requirements
of RS 32:412(I) or RS 40:132.1 --” which those are the
ones that require that someone who has to register as
a sex offender have the word “sex offender” written on
his ID, “-- who is in possession of any document
required by RS 32:412(I) or RS 40:1321(J) that has
been altered with the intent to defraud.” And that’s -that’s essentially what they are charging him. They’re
saying that he altered the document that was required
by law with the intent to defraud.
And the basis for my motion to quash is that that
requirement is unconstitutional.
And while there was a recent federal district court
opinion in Alabama -THE COURT: Do you have a copy of the motion?
MR. GREGORY: I filed it. I actually don’t think I
have a copy on me.
MADAME CLERK: I can print one for you, Judge.
THE COURT: The clerk’s going to get me one.
MS. BOUSTANY: Your Honor, you want my copy?
THE COURT: She’s going to print it. I mean, you
probably need yours.
We’ll go forward now.
MR. GREGORY: There was a federal district court
in Alabama that recently ruled that Alabama’s similar

App. 50
requirement that it’s a criminal sex offender on
someone’s license is unconstitutional, and that’s one of
the things I mentioned in my motion. But, essentially,
my motion actually -THE COURT: Now, that was a district court?
MR. GREGORY: Yeah, a federal district court.
THE COURT: A federal district court, okay.
MR. GREGORY: My motion actually really is based
on a case called Wooley v. Maynard. And I’ll just give
a basic description of that case. That was a United
States Supreme Court case back in the 1970s. So the
State of New Hampshire, the State motto is “Live Free
or Die.” And they require that the license plate of every
car say “Live Free or Die.”
There was a guy who was a Jehovah’s Witness in
New Hampshire and he said, “I hate that phrase. I
don’t believe in what it stands for. I don’t like Live Free
or Die. I think there are many other options.” So he
scratched it off of his license plate and was charged
with a misdemeanor, spent time in jail, and then filed
a federal suit to enjoin the New Hampshire police from
enforcing this law, saying that law was
unconstitutional. The United States Supreme Court
agreed.
The United States Supreme Court believed that this
is what was called “compelled speech.” And so
compelled speech is when the government forces
someone to say an ideological message that they do not
agree with.

App. 51
THE COURT: So, wait. You may get to this, but
would this apply to newspaper ads to -- to send out
notice that you’re a sex offender as well?
MR. GREGORY: Possibly, but that’s not at issue -THE COURT: Today?
MR. GREGORY: -- today.
THE COURT: Okay.
MR. GREGORY: Yeah, there are lots of possible
repercussions that certainly aren’t at issue today. But
the test for compelled -- so what the United States
Supreme Court has found and what jurisprudence has
said since is that compelled speech is presumptively
unconstitutional. And the only way that compelled
speech can pass constitutional muster is by undergoing
strict scrutiny analysis. And what that means is there
must be a compelling state interest that is furthered,
and the means of furthering it must be narrowly
tailored. They must be the least restrictive means of
furthering that interest. If they are not the absolute
least restrictive means, then the court is required to
find that this requirement is unconstitutional.
What the federal district court in Alabama ruled is
under this analysis they applied that to the sex
offender card and they found that it was not the least
restrictive means because there are states that do not
make you write the word “sex offender,” for instance,
Delaware, Florida. Instead, they just have a symbol
and that allows law enforcement to know. So when
you’re -- when you‘re dealing with law enforcement
that allows them to know that someone may be -- you

App. 52
know, have to register as a sex offender, but it prevents
someone from just the routine humiliation and
embarrassment of having to -- you know, you go open
a bank account and you have to let everyone in the
bank know that you have to register as a sex offender.
That’s embarrassing. It’s humiliating, and that’s what
Mr. Hill has been having to deal with for the past 22
years. That’s essentially my argument.
The State -- the state filed a reply brief. I’m going to
let the State reply as long as I get an opportunity for
rebuttal, but there is one thing I do want to address
because I think it will clear up a lot of the contention
between the State’s position and mine.
The elements of this crime that Mr. Hill is charged
with is, one, any person; two, who is in possession of a
document required by RS 32:412(I) and RS -- or RS
40:1321(J) that has been altered with the intent to
defraud.
THE COURT: Hang on just a second. We need quiet
back here. We cannot hear with -- I don’t know who the
gentlemen in the orange, turn around, please. Be quiet.
Thank you.
Okay.
MR. GREGORY: Many of the State’s arguments say
that Mr. Hill doesn’t have standing or the ability to
challenge this. I would disagree because their
argument is he doesn’t have standing to challenge the
constitutionality of the requirement -- the sex offender
requirement, which is 32:412(I), which if you have a
driver’s license, and 40:1321(J) which is if you don’t
have a driver’s license. Both of them require an ID

App. 53
card. They’re saying that Mr. Hill doesn’t have the
ability to challenge standing, however, these laws are,
in fact, an element of the crime. The requirements of
these laws are an element of the crime that Mr. Hill is
charged with, which I think rebuts any sort of standing
argument or that he can’t collaterally attack it.
MR. McPHEE: Thanks, Your Honor, I’d just like to
respond to that.
THE COURT: All right.
MR. McPHEE: So once, again, Mr. Hill is
challenging two different provisions, two statutes; the
one that requires him to obtain and carry the sex
offender ID, and the other is -- forbids him from
altering or prescribing it -- or altering it with intent to
defraud. And here we’re only charging him with
altering it with intent to defraud.
But going to my friend’s arguments, the Supreme
Court of Louisiana has explained that there is an
avoidance doctrine. This court should try as hard as it
possibly can to avoid ever ruling on the
constitutionality of a statute. And in a case called State
v. Mercadel it said that you have to look for the relief
requested in order to determine whether or not the
court should rule on the question. And Mr. Hill is
asking you to quash the motion -- or to quash the bill of
information. We’re only charging him with altering his
ID card. And Mr. Hill, he says that the different
elements that he’s being charged with, that they’re not
severable, but that’s incorrect. You actually can
severable -- can sever here the obtaining requirement -the obtain and carry requirement from the altering

App. 54
requirement and he’s trying to say that they’re all one
thing. And so if you charge him with one, then you
have to bring in the other, but that’s not right.
And I think that the clearest way to see that is that
if the court agrees -- even if the court agrees that those
provisions that carry and obtain requirements are
unconstitutional, it still wouldn’t help the defendant
because he altered his ID. He -- and so we could hit him
with charging him with intent to defraud no matter
what. And so I think the clearest way of showing that
is that there’s a process for challenging state statutes
we’ve listed in our brief. You know, you have to make
a motion. You can’t resort to self-help. You can’t just
say, you know what, I don’t like this idea, I’m going to
go ahead and change it. And the reason for that is
because everybody in the state knows that if
somebody’s been charged with a sex offense then your
ID will say “sex offender.”
And so if I’m deciding who I want to be my
babysitter and I know that I don’t want a sex offender
to babysit my children, I say, “Okay. I’d like to see your
ID before I allow you to babysit my children.” And, “Oh,
it says sex offender, I’m not going to hire you.”
Now, if somebody just goes ahead and resorts to
self-help and just takes it off but I expect that I can
just look at somebody’s ID, if he’s taken it off by
himself because he just thinks it’s unconstitutional,
well, that’s no good. And so what that means is that we
can charge him with altering the license with intent to
defraud, even if -- and so the obtain and the carry
requirements just aren’t at issue here at all. They are
severable.

App. 55
THE COURT: So you’re arguing that if he does
exercise self-help that that eliminates him arguing that
it’s unconstitutional?
MR. McPHEE: Yeah. I’m saying that he doesn’t
have -- the court -THE COURT: Because he has dirty hands, so to
speak, in your argument?
MR. McPHEE: Right. Right. He has dirty hands and
the court just shouldn’t rule on something even if -even if it granted him relief if it wouldn’t actually help
him. So if the court ruled those statutes are
unconstitutional, if that wouldn’t help him, then the
court shouldn’t rule the statutes are unconstitutional.
It’s the Avoidance Doctrine.
And the reason why you can apply the Avoidance
Doctrine here is because the provisions are severable.
Because even -- because you don’t need the obtain and
carry requirements to necessarily get at the defacing
requirement. And we’re only charging him with the
defacing requirement. So the court just shouldn’t touch
the questions over here of whether or not he has to
carry and obtain the ID card.
THE COURT: What about if -- well, if they would
use a symbol, like he -- he -- defense counsel has
argued that other states use?
MR. McPHEE: Right.
THE COURT: What would be the harm to the State,
the prejudice to the State in that situation if that were
the law?

App. 56
MR. McPHEE: Right. So in the Alabama case that
my friend referenced, it’s -- there the court was very
specific that the compelling interest of the state at
issue was informing law enforcement about the status,
the sex offender status. And in our brief we cite -- we
actually quote, a big block quote, the Louisiana
provision that lists Louisiana’s interests and the
interests are more powerful. It’s not just, “Oh, we want
to let law enforcement know.” It’s also we want to let
the public know. We want the public -- we want the
person looking for the babysitter to be able to have a
quick means of identifying the sex offender status, and
so our -- our compelling interests that we’ve stated in
our statutes are much stronger than the ones that the
Alabama court was dealing with. And so just a letter on
the ID isn’t going to help -- isn’t going to notify
members of the general public that he’s a sex offender.
You actually need something that says “sex offender” so
that everyone can see it and know. And so that’s an
important distinguishing point between our case and
between that Alabama case.
But I really don’t think that the court even needs to
get to the issue of whether or not this is compelled
speech because, once again, the court shouldn’t address
those provisions. And if we only look at the provision
that he’s been charged with, that is the altering and
defacing, well, the first amendment just doesn’t protect
that kind of conduct. The First Amendment, as a
general matter, protects speech and expressive
conduct.
I think a good example of this is the Supreme
Court’s opinion in O’Brien -- famously, Mr. O’Brien got

App. 57
up on the courthouse steps. He was angry that he had
to register for the draft. He lights his draft card on fire
in front of a big crowd and he gets arrested and the
Supreme Court looks at that and says, “You know, he
was sending a message. There was expressive conduct
there that the First Amendment maybe can offer some
protections.” Ultimately, Mr. O’Brien lost.
But here the First Amendment just doesn’t even
reach the conduct at issue because the conduct that Mr.
Hill did was clandestinely altered his ID, you know, not
in front of anybody or not in a crowd -- not on the
courthouse steps, not in front of a crowd. He wasn’t
trying to send a message so the First Amendment just
doesn’t protect that. So the court just shouldn’t address
the two provisions, the obtain and carry requirement,
and the First Amendment doesn’t protect the conduct
that he did, which was altering his license. But even if
the court wants to get into the issues of whether or not
this should have -- be a constitutionality of the obtain
and carry requirements, our compelling interests are
much higher, our stated ones, as you can see in the
statute, and I actually think that the district court in
Alabama made a mistake.
There isn’t -- the court doesn’t have to -- excuse me.
There’s a difference between government speech and
private speech. An ID card is government speech. Now,
that’s also true of a license plate, the “Live Free or
Die,” right. “Live Free or Die” is government speech
that’s on a license plate.
Also, similarly, that’s true of an ID car. But the
Supreme Court in Wooley v. Maynard explained that
ideological messages were -- that the government

App. 58
couldn’t force people to share its ideological messages.
It couldn’t make people walking billboards. That’s what
the Supreme Court said it couldn’t do.
Here, though, whether or not somebody’s a sex
offender is just a basic fact. It’s not an ideological
message. Now, the Supreme Court did explain in a
different case that the government couldn’t compel
private persons to share private -- or to share basic
facts. But the government in government speech
absolutely can share basic facts, otherwise, it would be
wrong -- otherwise, the government would have to
survive strict scrutiny to put that I need to wear light -glasses on my driver’s license. There’s no way that that
has to survive strict scrutiny. And the reason for that
is because it’s a basic fact and it’s government speech.
Same with the sex offender ID, it’s a basic fact. It
purports simply that he’s been convicted previously of
a sex offense and it’s government speech. It’s a
government ID.
So even if the court is inclined to get into the issue,
our interests are more compelling and it’s just not
protected speech, and that’s the end of my argument.
MR. GREGORY: Yeah, responses to those. As for
the idea of self-help, it’s a pretty basic tenant of
constitutional law that the law’s unconstitutionality is
a defense. And the State seems to suggest that, you
know, well even if the requirement’s unconstitutional,
he can’t just, you know, violate it. Well, that’s actually
-- that’s how most of these constitutional cases came
about. That’s how Wooley v. Maynard came about.
There was a law. He resorted to self-help in taking
“Live Free or Die” off his license plate. Similarly, the

App. 59
State spends a lot of time citing United States v.
Alvarez. There someone was charged with violating the
Stolen Valor Act and pretending that they were in the
military. And the federal court there said that law is
unconstitutional. You know, the conviction was not
upheld there. And so, yes, defacing government
property is a crime, but charge him with a
misdemeanor, simple criminal damage to property. It
is an element of this crime, RS 32:412(I) or 40:1321(J)
is as an element of this crime. They cannot convict him
of this crime if those laws are unconstitutional.
As far as government speech vers us private speech,
this is -- yes, the government makes the license, but
again, it’s the same thing in Wooley v. Maynard, the
government made that license plate that said “Live
Free or Die.” Also, it’s not purely sort of private or
clandestine, the whole problem is that he then goes and
has to show his ID to people. That’s the speech at issue
here.
And so he -- I would also disagree that this is a
basic fact. In the time between when Mr. Hill was
convicted in 1997 and 2019, the Louisiana legislature
actually changed registration laws. This is something
that is totally at the discretion of the government. This
is an ideological message that the government is
making someone say. This is something that Mr. Hill
objects to.
Mr. Hill, who again, was convicted 22 years ago
disagrees that he should have to continue to label
himself this way in this humiliating, degrading fashion.
And as for the idea that this is the least restrictive
means of furthering compelling state interest, I mean,

App. 60
the State brings up babysitting. Someone who’s a
babysitter can just go on the internet and look at the
register. Everyone in the State of Louisiana who’s been
convicted of a sex offense has to register. They can do
that.
Mr. Hill going to cash a check, what does that have
to do with anything, what he’s been convicted of? Going
to vote, what does that have to do with anything? And
he is able to vote at this time.
Perhaps, maybe making, you know, large credit
card purchases or sometimes if you were to go rent a
hotel room, things like that, there are opportunities -there are times when you have to show your ID. If he
wants to get on a plane, what do they need to know?
That’s what makes it so overbroad, is that if there was
just a registry, then people that wanted to know these
things could go look it up. But people who are just
going about -- toiling about in their job at the bank
don’t need to know, you know, this about Mr. Hill in
order for him to cash a check.
THE COURT: Motion’s granted.
MR. GREGORY: Thank you, Your Honor.
THE COURT: You’re welcome.
MR. McPHEE: Just to clarify what exactly is
granted.
THE COURT: On both statutes, Title 40 and Title
15 as prayed for.

App. 61
MS. BOUSTANY: So Your Honor, you found -- I’m
trying to get some clarification. You found these
statutes unconstitutional?
THE COURT: Correct.
MR. McPHEE: You’re striking them down?
THE COURT: Yes.
MS. BOUSTANY: Okay. Your Honor, we’re going
to -MR. McPHEE: Yeah, we’ll definitely be appealing
this, I think directly to the Supreme Court, Your
Honor.
MR. GREGORY: I was anticipating that.
THE COURT: Okay. Anything else ready to proceed
at this time?
I’ll be in chambers, ladies and gentlemen. I’ll be
back when everything is ready to proceed.
(RECESS)
THE COURT: So let’s take up the Hill matter first.
MR. McPHEE: Yes, Your Honor, in light of the
extraordinary circumstances -THE COURT: State versus Hill, Tazin Hill.
MR. McPHEE: Your Honor, in light of the
extraordinary circumstances, the court has now struck
down two Louisiana State Statutes requiring sex
offenders to have an ID that says “sex offender” on it,
the Court -- which -- and we haven’t even charged him

App. 62
with violating one of those statutes, the State moves for
written reasons to that effect.
MR. GREGORY: Sure.
THE COURT: All right. There’s no requirement
under the Criminal Code for written reasons, but I can
give a short explanation of the reason why I ruled the
way I did.
MR. McPHEE: Thank you, Your Honor.
THE COURT: I found the statute to be
unconstitutional -- statutes to be unconstitutional in
that the requirement that the offender have “sex
offender” written on his official state identification is
not the least restrictive way to further the State’s
legitimate interest of notifying law enforcement. It
could be accomplished in the same way that some other
states utilize. Louisiana could use more discreet labels
in the form of codes that are known to law enforcement.
So that’s it.
MR. McPHEE: Thank you, Your Honor.
MR. GREGORY: Thank you, Your Honor.
MS. BOUSTANY: Thank you, Judge.
(CONCLUSION)

App. 63
CERTIFICATE
PARISH OF LAFAYETTE
STATE OF LOUISIANA
I, Beth R. Liles, Official or Deputy Official Court
Reporter in and for the State of Louisiana, employed as
an official or deputy official court reporter by the
Fifteenth Judicial District Court for the Parishes of
Acadia, Vermilion and Lafayette, State of Louisiana, as
the officer before whom this testimony was taken, do
hereby certify that this testimony was reported by me
in the stenotype reporting method, was prepared and
transcribed by me or under my direction and
supervision, and is a true and correct transcript to the
best of my ability and understanding; that the
transcript has been prepared in compliance with the
transcript format guidelines required by statute or by
rules of the board or by the Supreme Court of
Louisiana, and that I am not related to counsel or to
the parties herein nor am I otherwise interested in the
outcome of this matter.
Lafayette, Louisiana, this 14th day of February,
2020.
/s/ Beth R. Liles
BETH R. LILES
OFFICIAL COURT REPORTER
CERTIFICATE #91135

FILED THIS 14
DAY OF FEB. 2020
/s/
Deputy Clerk of Court

App. 64

APPENDIX E
BILL OF INFORMATION
[FILED APRIL 10, 2017]
STATE OF LOUISIANA
VERSUS

No. CR160634

TAZIN HILL
IN THE FIFTEENTH JUDICIAL DISTRICT
COURT FOR THE PARISH OF LAFAYETTE
STATE OF LOUISIANA
KEITH A. STUTES, District Attorney in and for the
Fifteenth Judicial District Court, through the
undersigned Assistant District Attorney, and by
authority of the Laws of the STATE OF LOUISIANA
charges that on or about December 5, 2016, at and in
the Parish, District and State aforesaid
TAZIN HILL
104 LUTHER ST
NEW ROADS, LA 70760
DOB 07/08/1977 DL# -LA BLACK/MALE
ARREST DATE: 12/05/2016
SSN #####6605
SID 001643362
did willfully, unlawfully and intentionally and/or
possessed and/or altered an official identification

App. 65
document, to-wit: State of Louisiana Identification
Card, that had been altered to conceal the designation
that he was a registered sex offender, in violation of the
provisions of R.S. 15 :542. l.4(C).
CONTRARY TO THE LAWS OF THE STATE OF
LOUISIANA and against the Peace and Dignity of the
same.
Respectfully Submitted,

FILED: 4/10/17
/s/
DEPUTY CLERK

/s/ RSB
ROYA S. BOUSTANY
Assistant District Attorney

App. 66
[01/__/2017]
LA0280000 Signal
6

Rep Area

Item #
16-0391864

Report Type
Date
OFFENSE/INCIDENT 05-DEC-2016
Day of Wk. Begin Date
MON
05-DEC-2016
End Date
05-DEC-2016

Time
1245

Begin Time
1045

End Time
1224

Location of Offense
316 W MAIN STREET LAFAYETTE 70501
Reporting Officer
ALICIA TENNEY

Responding Detective
ALICIA TENNEY

PR: 11209

PR: 11209

BP: 723

BP: 723

Arrived: 051045

Notified: 051045

Completed: 051224

Arrived: 051045

Supervisor
PR:

BP:

Notified:
Arrived:

App. 67

REPORTING PERSON
Name: ALICIA TENNEY

Race: WHITE

Sex: FEMALE
DOB: 30-AUG-1975

Age: 41

Address: 316 W MAIN STREET
City/St/Zip: LAFAYETTE, LA 70501
Social Security #
Identify Suspect?

Drivers Lic#

D.L. State

Voluntary Statement?

Employer/School: LAFAYETTE PARISH SHERIFF
Address: 316 W MAIN STREET
City/St/Zip: LAFAYETTE, LA 70501
Home Phone:
Work Phone: (337)-236-3944
Cell Phone:
VICTIM
Victim Sequence Number: 1
Type: GOVERNMENT
For Insurance Purposes?
Name: STATE OF LOUISIANA
Address:

App. 68
City/St/Zip:
Social Security #

Drivers Lic #

D.L. State
LA

Home Phone:
Work Phone:
Cell Phone:
OFFENSE
Offense Sequence Number: 1
Victim: 1

Suspect: 1

R.S. Number: 15:542.14C(1)
Title: ALTERED SEX OFFENDER ID
Attempted/Completed: ATTEMPTED
Location Type: OTHER / UNKNOWN
Number of Premises:
Criminal Activity 1: POSSESSING/CONCEALING
Weapon/Force Type 1: NONE
SUSPECT
Suspect Sequence Number: 1
Name: TAZIN HILL Race: Black

Sex: MALE

DOB: 18-JUL-1977

To:

Age From: 39

Ethnicity: NON-HISPANIC

Resident? YES

App. 69
Height From: 510 To:
Eye Color: BROWN

Weight From: 165 To:
Hair Color: BLACK

Hair Length:
Address: 104 LUTHER STR
City/St/Zip: NEW ROADS, LA 70760
Alcohol Consumed?
Drugs Used?
Armed:

Computer Used?

Gaming Motive?

Gang Related:

Hate/Bias: NONE

Can be Identified by Witness:
Identifiable Features:
Location:
Arrest Type: NONE
Local Check?

Voluntary Statement?

State Check?

NCIC Check?

Suspect Injury Codes: NONE
Social Security #
439336605

Drivers Lic #

Home Phone:
Work Phone:
Cell Phone: (225)-2402029
ADDITIONAL WITNESS
None

D.L. State

App. 70
PROPERTY
Property Owner or Property recvd from:
SUSPECT 0
Desc. Code: 77 - OTHER
Loss Type: 5 - RECOVERED
Quantity: 1 Value:$0 Insured:
Owner-applied Number: Make:
Model:

Serial Number:

Description: ALTERED
IDENTIFICATION CARD

SEX

OFFENDER

Date Recovered: 05-DEC-2016
Recovery Address: 316 MAIN STREET
City/St/Zip: LAFAYETTE, LA 70501
Recovery Condition: GOOD
Recovery Disposition: SUBMITTED TO LPSO
EVIDENCE
VEHICLE
None
CRIME SCENE
None

App. 71
INVESTIGATION
Type of Force Used: FORCE NOT SPECIFIED
Security Device Installed?
Point of Entry: Security Device Activated?
Safe Job?

Gambling Devices on Premises?

Alcoholic Beverage Outlet?
Prior History of Domestic Violence?
Prior History Documented?
Number of Prior Cases:
Modus Operandi (MO): CONVICTED SEX
OFFENDER HILL WAS IN POSSESSION OF AN
ALTERED SEX OFFENDER IDENTIFICATION
CARD.
INSURANCE
None
APPROVAL
Sergeant Viewed
User ID:

LIGHTFOOT_JC

Date/Time: 29-DEC-2016 13:32
Lieutenant Viewed
Dist. Cmdr. Viewed

App. 72
FINAL APPROVAL User ID: LIGHTFOOT-JC
Date/Time: 29-DEC-2016 13:32
Crime Prevention Officer Required?
Issued Compliant Slip?
911 Notified?
Warrant?
Parade Related?

Crime Scene Required?

Report Status: COMPLETED
Exceptional Clearance: NOT APPLICABLE
Date:
District Follow Up?
Bureau Follow Up?
NARRATIVE
Time Stamp: 12/5/2016 13:13

Written By: ALICIA
TENNEY

INITIAL REPORT:
REPORT NUMBER: 16-391864
DATE & TIME OCCURRED: 12/5/16, 1046 HOURS
TYPE OF CRIME: ALTERED SEX OFFENDER ID
LOCATION OF INCIDENT: 316 W MAIN ST,
LAFAYETTE, LA 70501

App. 73
SUSPECT INFORMATION: TAZIN HILL
DRUG EVIDENCE: N/A
OTHER EVIDENCE: ALTERED SEX OFFENDER
ID
DISPOSITION OF EVIDENCE: SUBMITTED TO
LPSO EVIDENCE
VEHICLE INFORMATION: N/A
VEHICLE DISPOSITION: N/A
ITEM SEIZED AS EVIDENCE: ALTERED SEX
OFFENDER ID
CASE DISPOSITION: CONVICTED SEX
OFFENDER WAS IN POSSESSION OF AN
ALTERED SEX OFFENDER IDENTIFICATION
CARD.
INJURY SUSTAINED: N/A
INVESTIGATIVE NARRATIVE:
ON DECEMBER 5, 2016 AT APPROXIMATELY
1045 HOURS, CONVICTED SEX OFFENDER
TAZIN HILL REPORTED TO THE LAFAYETTE
PARISH SHERIFF’S OFFICE IN ORDER TO
UPDATE HIS ADDRESS INFORMATION. AT
THIS TIME, DETECTIVE MIKE THOMAS ASKED
HILL TO PROVIDE HIS SEX OFFENDER
IDENTIFICATION CARD WHILE DETECTIVE
ALICIA TENNEY PROVIDED HILL WITH
PAPERWORK TO COMPLETE. DETECTIVES
TENNEY AND THOMAS OBSERVED HILL’S SEX
OFFENDER ID CARD ALTERED IN WHICH IT

App. 74
APPEARED THE LAMINATION HAD BEEN
LIFTED AND THE WORDS “SEX OFFENDER”
HAD BEEN REMOVED. UPON QUESTIONING
HILL ABOUT THE ALTERED SEX OFFENDER
ID CARD, HILL ADVISED, “I JUST WASHED IT
WITH MY CLOTHES AND IT CAME OFF.” IT
SHOULD BE NOTED THAT A SMALL
RECTANGULAR INDENTION COULD BE FELT
ON THE ID WHERE THE WORDS “SEX
OFFENDER” HAD BEEN REMOVED (CUT OUT)
FROM THE ID AND VISIBLE TRANSPARENT
TAPE HAD BEEN PLACED OVER IT. AT THIS
TIME HILL WAS MIRANDIZED AND PLACED
UNDER ARREST BY DETECTIVES. HILL WAS
BOOKED INTO THE LAFAYETTE PARISH
CORRECTIONAL CENTER FOR ONE COUNT
R.S. 15:542.1.4.C(1): ALTERED SEX OFFENDER
ID.

App. 75
FIFTEENTH JUDICIAL DISIRICT COURT
PARISH OF LAFAYETTE
STATE OF LOUISIANA
AFFIDAVIT FOR WARRANT OF ARREST
Enter data legibly in black ink
Arrestee Information
Arrest # 16-12685 Case # 16-391864
Last Name Hill
Gender: Male :

First Name Tazin Middle
Female 9
D/O/B 07/18/1977

Age: 39
Race: White 9 Black : Indian 9 Asian 9 Other 9
Arrest Location 316 W Main St, Lafayette
Arrest Date/Time 12/5/16/ 10:46
Statute/Charges:
Offender ID

15:542.1.4.C(1):

Altered

Sex

Transporting Officer Detective Mike Thomas
Arresting Officer Detective Alicia Tenney
LAFAYETTE SHERIFF
DEPUTY
Did prisoner cooperate during the arrest process?
Yes : No 9
Were restraining devices other than handcuffs used?
Yes 9 No :
If yes, list devices:

App. 76
Does the arrestee have a valid ID? Yes 9 No :
Did your agency seize of retain any of the arrestee’s
property?
Yes : No 9
If yes, list items: Altered sex offender ID card
Continued Detention is required because:
The arrestee is likely to cause injury to himself,
another or property. Yes 9 No 9
The inmate has prior criminal convictions. Yes 9 No 9
The arrestee is unlikely to appear on a issued
summons. Yes 9 No 9
The affiant states that the accused committed the
above offense based on the following information:
On December 5, 2016 at approximately 10:45 am,
convicted sex offender Tazin Hill reported to the
Lafayette Parish Sheriff’s Office sex offender registry
office. At this time, Detective Tenney asked Tazin Hill
to provide his sex offender identification card. Detective
Tenney observed Hill’s ID to be altered in which the
words “sex offender” had been removed from Hill’s ID.

App. 77
Sworn to and subscribed before me this 05 day of
December 2016

/s/

Alicia Tenney
Affiant (Print)

147984
Notary
/s/ Alicia Tenney
Ex-Officio Notary Public
Affiant (Signed)
Lafayette Parish
Sheriff’s Office
Check here if additional sheets attached 9

App. 78
FIFTEENTH JUDICIAL DIS1RICT COURT
PARISH OF LAFAYETTE
STATE OF LOUISIANA
AFFIDAVIT FOR WARRANT OF ARREST
[RECEIVED DEC 06 2016
LAFAYETTE PARISH
DISTRICT ATTORNEY]
Enter data legibly in black ink
Arrestee Information

Comm
bond
12/26 12/06

Arrest # 16-12685 Case # 16-361864
Last Name Hill
Gender: Male :

First Name Tazin Middle
Female 9
D/O/B 07/18/1977

Age: 39
Race: White 9 Black : Indian 9 Asian 9 Other 9
Arrest Location 316 W Main St Lafayette
Arrest Date/Time 12/5/16/ 10:46
Statute/Charges:
Offender ID

15:542.1.4.C(1):

Altered

Sex

Transporting Officer Detective Mike Thomas
Arresting Officer Detective Alicia Tenney
LAFAYETTE SHERIFF
DEPUTY
Did prisoner cooperate during the arrest process?
Yes : No 9
Were restraining devices other than handcuffs used?

App. 79
Yes 9 No :
If yes, list devices:
Does the arresstee have a valid ID? Yes 9 No :
Did your agency seize of retain any of the arrestee’s
property?
Yes : No 9
If yes, list items: Altered sex offender ID card
Continued Detention is required because:
The arrestee is likely to cause injury to himself,
another or property. Yes 9 No 9
The inmate has prior criminal convictions. Yes 9 No 9
The arrestee is unlikely to appear on a issued
summons. Yes 9 No 9
The affiant states that the accused committed the
above offense based on the following information:
On December 5, 2016 at approximately 10:45 am,
convicted sex offender Tazin Hill reported to the
Lafayette Parish Sheriff’s Office sex offender registry
office. At this time, Detective Tenney asked Tazin Hill
to provide his sex offender identification card. Detective
Tenney observed Hill’s ID to be altered in which the
words “sex offender” had been removed from Hill’s ID.

App. 80
Sworn to and subscribed before me this 05 day of
December 2016

/s/

Alicia Tenney
Affiant (Print)

147984
Notary
/s/ Alicia Tenney
Ex-Officio Notary Public
Affiant (Signed)
Lafayette Parish
Sheriff’s Office
Check here if additional sheets attached 9

App. 81
LAFAYETTE PARISH SHERIFF’S OFFICE
Arrest Register
ATN 280011612685
[December 5, 2016]
Arrestee
TAZIN HILL
ARRESTEE DATA
Last Name First
HILL
TAZIN

Middle

Race Sex
B
M

DOB
ETHNICITY
07/18/1977 NHIS
Arrestee Address
104 LUTHER STR NEW ROADS, LA 70760
Hair
BLK

Eyes
BRO

SSN
License
439336605

SID
001643362

CCN
1411043

Height
Weight
5 ft. 10 in.165
ALIAS Name (last,first,middle,suffix), ALIAS Sex,
Race, DOB
Birth State Nationality
LA
US
ARREST DATA
Location of Arrest
316 W MAIN STR LAFAYETTE LA

App. 82
Arrest Date & Time
12/05/2016 10:46
Cross Street

Grid

Arresting Officer’s Name 1
LPSO/ A. TENNEY

Officer’s PR #

Arresting Officer’s Name 2

Officer’s PR #

Unit

Credit
07
Transporting Officer’s Name
LPSO/ A. TENNEY

Trans. Officer’s PR #

Credit Description
LAFAYETTE PARISH SHERIFF
CHARGES
Item Number
16-0361864

S/A/W

Type
Charge Code
FE
154:542.1.4C(1)

Charge Title
Instant Charge
ALTER SEX OFFENDER ID
Y
Court
15
15TH JUDICIAL DISTRICT
REMARKS
CONVICTED SEX OFFENDER

App. 83
Prisoner Card
[December 5, 2016]
REPORT OF HILL TAZIN
CCN 1411043

Race Sex
B
M

DOB
07/18/1977

Incarcerated: H

HOLDING, INTAKE-LPCC
Height - 510

Weight - 165

Hair - BLK

Eyes - BRO
Ethn - NHIS

Residency - R

Date Entered 12/05/2016
IDENTIFICATION NUMBERS
Type
LODIS

Description

Number
No

State

WARRANTS
Date issued Docket Number

Item Number

Type Disposition Date Served Court ID
Issuing Officer
DETAINERS
Agency

Commments

Date Entered

PROBATION/PAROLE
Start date

End date

Date Entered

Type

State Charge

App. 84
ADDRESSES
Address
104 LUTHER STR
Zip Code
70760

City
NEW ROADS

Date Entered
12/05/2016

State
LA

Last Updated

PHONE NUMBERS
Area Code

Phone Number Extension

Date Entered

Phone Type

Last Updated

ALIASES
Type Last Name

First

Suffix

Race Sex

Height

Weight

DOB

Middle
Hair Eyes

Enter Date

PHYSICAL DESCRIPTORS
Record Type
BEARD

Date Entered
12/05/2016

Location/Description Scar Type
Tattoo Literal
Record Type
BUILD

Tattoo Type

Remarks
GOATEE

Date Entered
12/05/2016

Location/Description Scar Type
Tattoo Literal

Remarks
LIGHT

Record Type
Date Entered
COMPLEXION 12/05/2016

Tattoo Type

App. 85
Location/Description Scar Type
Tattoo Literal
Record Type
HAIR LENGTH

Remarks
DRK
Date Entered
12/05/2016

Location/Description Scar Type
Tattoo Literal
Record Type
MUSTACHE

Record Type
TATTOO

Date Entered
12/05/2016

Record Type
TATTOO

Date Entered
12/05/2016
Tattoo Type
WORD

Remarks
NECK
Date Entered
12/05/2016

Location/Description Scar Type
LEFT ARM
Tattoo Literal

Tattoo Type

Remarks
MEDIUM

Location/Description Scar Type
Tattoo Literal

Tattoo Type

Remarks
ABOVE EAR

Location/Description Scar Type
Tattoo Literal

Tattoo Type

Tattoo Type
PICTURE

Remarks
ARREST

Booking Date and Time 12/052016 11:05

App. 86
Arrest Date and Time: 12/05/2016 10:46
Arrest Location: 316 W MAIN STR
ATN: 280011612685
Officer1: LPSO/A.TENNEY
Officer 2:
Arresting Agency: LA0280000
Comments: CONVICTED SEX OFFENDER
Charges:
Type Item Number
FE
16-0361864

Seq No
001

Statute
15:542.1.4C(1)

Description
ALTER SEX OFFENDER ID
Amended To

Description

Bond Amount: $0
*

*

*

*

END OF REPORT

*

*

*

*

App. 87
ARREST SUMMARY REPORT
SID: 001643362
ATN: 2800316070005
LBN 11612685
NAME: HILL
RACE: B

TAZIN

SEX: M

ATN CHG NO
1

DOB 07/18/1977
SSN 439-33-6605

AGENCY
ARREST DATE
LA0280000 12/05/2016

STATUTE CODE & MODIFIER
DEG CNT
[Illegible]15:542.1.4C(1) . .ALTER SEX OFFENDER ID

